                                     SOCIAL SECURITY
MEMORANDUM

Date:   August 2, 2004                                                         Refer To:

To:     The Commissioner

From:   Acting Inspector General

Subject: Management Advisory Report: Summary of Fiscal Year 2003 Office of the Inspector
        General Audits of Representative Payees (A-13-04-14067)


        Attached is a copy of our final report. Our objectives were to (1) summarize common
        findings and recommendations from six audits of representative payees and
        (2) identify significant issues related to the Social Security Administration’s oversight
        of representative payees.

        The individual reports on which this summary is based were issued to various Regional
        Commissioners and representative payees. This annual summary report is the vehicle
        through which the Office of the Inspector General provides the Commissioner an
        overview of common issues identified during the year. We believe the information in
        this report provides valuable insights to Agency management and is useful in assisting
        the Agency in improving its oversight of the Representative Payee Program. In
        addition, the Agency can use our summarized audit results to determine whether
        corrective actions contained in individual reports for specific representative payees also
        apply to others participating in the Representative Payee Program. To the extent that
        we continue to perform these reviews, our office will prepare an annual summary of the
        results. We believe this summary provides information that will assist the Agency in
        developing a strategy to meet its responsibilities under Public Law 108-203.

        Since we have no new recommendations to report, further comments are not
        necessary. If you wish to discuss the report, please call me or have your staff contact
        Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                         S
                                                         Patrick P. O’Carroll, Jr.

        Attachment
           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



   SUMMARY OF FISCAL YEAR 2003
 OFFICE OF THE INSPECTOR GENERAL
 AUDITS OF REPRESENTATIVE PAYEES


  August 2004   A-13-04-14067



  MANAGEMENT
 ADVISORY REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                                        Executive Summary
OBJECTIVE
Our objectives were to (1) summarize common findings and recommendations from six
audits of representative payees and (2) identify significant issues related to the Social
Security Administration’s (SSA) oversight of representative payees.

BACKGROUND

Some individuals cannot manage or direct the management of their finances because of
their youth or mental and/or physical impairments. Congress granted SSA the authority
to appoint representative payees to receive and manage these beneficiaries’1
payments. A representative payee may be an individual or an organization. SSA
selects representative payees for Old-Age, Survivors and Disability Insurance
beneficiaries or Supplemental Security Income recipients when representative
payments would serve the individual’s interests. Representative payees are responsible
for using benefits in the beneficiaries’ best interests.

RESULTS OF REVIEW

Of the six representative payees audited for Fiscal Year 2003, we determined that three
generally (1) had effective safeguards over the receipt and disbursement of Social
Security benefits and (2) ensured Social Security benefits were used and accounted for
in accordance with SSA’s policies and procedures. The three remaining representative
payees had problems in both of these areas.

The Regional Commissioners agreed with 38 of our 39 recommendations. We have no
new recommendations. See Appendices C-1 through C-6 for the specific
recommendations for each of the six audits.

AGENCY COMMENTS

The Agency is in the process, or has taken the necessary actions, to implement 38 of
the 39 recommendations from the six previous Office of the Inspector General audits
involving representative payees in the regions. The Agency acknowledges a problem
with the Representative Payee System (RPS) and has plans for enhancements to RPS.
(See Appendix E for the full text of SSA’s comments.)




1
  The term “beneficiary” is used generically in this report to refer to both Old-Age, Survivors and Disability
Insurance beneficiaries and Supplemental Security Income recipients.


Summary of FY 2003 OIG Audits of Representative payees (A-13-04-14067)
                                                                    Table of Contents
                                                                                                             Page

INTRODUCTION.....................................................................................................1

RESULTS OF REVIEW ..........................................................................................2

Overview of Problematic Conditions...................................................................2

    Internal Control Weaknesses Existed ...............................................................3

    Bank Accounts Were Not Properly Titled ..........................................................3

    Direct Deposit of Benefit Payments Was Not Used ...........................................3

    Representative Payee Reports Were Incorrectly Prepared ..............................4

    Improper Endorsement of Beneficiary Checks ..................................................4

Significant Issues Related to SSA’s
Oversight of the Representative Payment Program ..........................................5

    SSA Could Not Retrieve All Representative Payee Reports .............................5

    Representative Payee System Missing Beneficiary Data .................................6

CONCLUSIONS .....................................................................................................7

APPENDICES

APPENDIX A – Acronyms

APPENDIX B – Background, Scope, and Methodology

APPENDIX C – Office of the Inspector General Audits of Representative Payees

APPENDIX D – Summary of Previous OIG Recommendations

APPENDIX E – Agency Comments

APPENDIX F – OIG Staff Contacts and Acknowledgments




Summary of FY 2003 OIG Audits of Representative Payees (A-13-04-14067)
                                                                              Introduction
OBJECTIVE
Our objectives were to (1) summarize common findings and recommendations from six
audits of representative payees and (2) identify significant issues related to the Social
Security Administration’s (SSA) oversight of representative payees.

BACKGROUND

Some individuals cannot manage or direct the management of their finances because of
their youth or mental and/or physical impairments. Congress granted SSA the authority
to appoint representative payees to receive and manage these beneficiaries’1
payments.2 A representative payee may be an individual or an organization. SSA
selects representative payees for Old-Age, Survivors and Disability Insurance
beneficiaries or Supplemental Security Income recipients when representative
payments would serve the individuals’ interests.

Our prior audits of representative payees have identified weaknesses in SSA’s
monitoring of and accounting for representative payees. Problematic conditions
identified during these audits included: internal control weaknesses; bank accounts
were not properly titled; direct deposit of benefit payments was not used; representative
payee reports were incorrectly prepared; improper endorsement of beneficiary checks;
SSA could not always retrieve representative payee reports; and missing data in SSA’s
Representative Payee System (RPS). Many of these problematic conditions were also
identified during our Fiscal Year (FY) 2003 audits.




1
  We use the term “beneficiary” generically in this report to refer to both Old-Age, Survivors and Disability
Insurance and Supplemental Security Income recipients.
2
  42 U.S.C. §§ 405(j), 1383(a)(2).


Summary of FY 2003 OIG Audits of Representative Payees (A-13-04-14067)                                 1
                                                        Results of Review
The six audits revealed some problematic conditions that needed corrective action. The
Regional Commissioners agreed with 38 of our 39 recommendations. After reviewing
the results of our audits, we identified two issues related to SSA’s oversight of
representative payees that warrant the attention of Agency management.

Overview of Problematic Conditions

Of the six representative payees audited for FY 2003, we determined that three
generally (1) had effective safeguards over the receipt and disbursement of Social
Security benefits and (2) ensured Social Security benefits were used and accounted for
in accordance with SSA’s policies and procedures. However, there were additional
improvements that could be made. The three remaining representative payees had
significant problems in both of these areas.

Our audits of these six representative payees found the following.

           Findings                                 Representative Payee3
                                  C-1       C-2       C-3        C-4       C-5       C-6      Total
    Internal Control               X                   X          X         X         X        5
    Weaknesses Existed
    Bank Accounts Were Not         X                              X                   X           3
    Properly Titled
    Direct Deposit of Benefit      X                   X          X                               3
    Payments Was Not Used
    Representative Payee                     X         X                                          2
    Reports Were Incorrectly
    Prepared
    Improper Endorsements of       X                   X                                          2
    Beneficiary Checks


Significant issues related to the oversight of the representative payee program include:
      •   SSA could not retrieve all the Representative Payee Reports (RPR) we
          requested for the five representative payees4 required to complete such reports,
          and
      •   Agency’s RPS was missing beneficiary data for 35 individuals.


3
  Appendices C-1 through C-6.
4
  One representative payee (C-5) was a State mental institution participating in the On-site Review
Program and exempt under Program Operations Manual System (POMS) GN 00605.001 from completing
an annual Representative Payee Report. SSA is required to conduct an on-site review every 3 years for
these institutions per POMS GN 00605.500.


Summary of FY 2003 OIG Audits of Representative Payees (A-13-04-14067)                        2
Internal Control                Representative payees should keep accurate and complete
Weaknesses                      records to show how much they received in SSA benefits
Existed                         and how that money was used.5 Annually, a representative
                                payee is required to report this information to SSA by
                                completing and returning the RPR.6

Five representative payees7 we reviewed did not have adequate internal controls to
ensure the accuracy and completeness of recorded benefit receipts and disbursements.
Some of the reported weaknesses included: (1) the check disbursement approval
process did not include an independent verification of original invoices;
(2) documentation supporting all expenditures was not maintained; (3) beneficiary funds
were commingled with representative payee’s own operating funds; and (4) benefit
payments were not always accounted for. These internal control weaknesses put about
$4 million of beneficiary funds at risk.

Bank Accounts               SSA policy states that a representative payee may establish
Were Not Properly           collective checking and savings accounts to hold monies
Titled                      belonging to several beneficiaries. However, to protect the
                            beneficiaries’ funds, the account title must show that the funds
                            belong to the beneficiaries and not the representative payee.8

Three of the representative payees9 we reviewed held funds in bank accounts that were
not properly titled. A properly titled account is important because if the representative
payee has financial problems and/or bankruptcy occurs, beneficiary funds may not be
protected from loss or theft. During our audit periods, the representative payees
received about $1.6 million in beneficiary funds.

Direct Deposit of         Federal regulations generally require that all Federal payments
Benefit Payments          be made by electronic funds transfer, otherwise known as
Was Not Used              direct deposit.10 However, the requirement to receive
                          payments by direct deposit can be waived if it would impose a
                          hardship on the individual.11 SSA’s Guide for Organizational
Representative Payees encourages the representative payee to have benefit payments
directly deposited in a bank account. Direct deposit is a more secure way of receiving
payments and protects beneficiaries from the loss, theft, or delays associated with
mailing and forging paper checks. For a representative payee, direct deposit is an
effective and efficient process that saves the time and effort of handling numerous
benefit checks.


5
  20 C.F.R. §§ 404.2065, 416.665.
6
  POMS, GN 00605.001.
7
  Appendices C-1, C-3, C-4, C-5 and C-6.
8
  POMS, GN 00603.020.
9
  Appendices C-1, C-4, and C-6.
10
   31 C.F.R. § 208.3.
11
   31 C.F.R. § 208.4.


Summary of FY 2003 OIG Audits of Representative Payees (A-13-04-14067)                 3
Three of the representative payees12 we reviewed did not establish direct deposit for
beneficiary payments, leaving about $2.9 million in beneficiary checks vulnerable to loss
and theft.

                      Representative payees are responsible for keeping records and
Representative
                      reporting on the use of Social Security benefits by annually
Payee Reports
                      completing RPRs. SSA uses the RPR to monitor how the
Were Incorrectly      representative payee spent and/or saved the benefits on behalf
Prepared              of the beneficiary and identify situations where representative
                      payment may no longer be appropriate or the representative
payee may no longer be suitable.13

During our audits, we found that two representative payees14 used estimated
expenditures to complete the RPR. One representative payee used the same amounts
for money spent and saved for the reporting periods. The other representative payee
reported spending $1,000 each on personal items for 12 of 19 RPRs reviewed. Our
review of the accounting records for one of the beneficiaries showed that the
representative payee actually spent over $3,000 on personal items. Because of these
practices, these two representative payees did not provide an accurate report of
beneficiary funds spent on food, housing, clothing, medical, dental, recreation or
personal items for the periods covered by our audits.

                         According to SSA policy, a beneficiary's mailing address should
Improper
                         generally be the address where the individual resides. Any
Endorsement of           other address is questionable and is not acceptable if it
Beneficiary Checks       facilitates an assignment of benefits, directs checks to a
                         location where the “check payee” cannot readily negotiate
them, or permits the “check payee” to conceal information that would result in
nonpayment of benefits.15 SSA policy also states, “…if the mailing address is that of a
hospital, nursing home, rest home, etc., the beneficiary may need a representative
payee. “16

For two representative payees17 reviewed, we identified 25 beneficiaries who had their
benefit payment checks sent directly to the reviewed representative payees. However,
none of the 25 beneficiaries had a representative payee appointed and all of the checks
were made payable to the beneficiaries. We found the representative payees
improperly endorsed and deposited into their operating accounts at least 147 benefit
payment checks, totaling approximately $88,000, without the beneficiaries' signatures.


12
   Appendices C-1, C3, and C-4.
13
   POMS, GN 00605.001.
14
   Appendices C-2 and C-3.
15
   Assignment is defined as the transfer of the right to, or payment of, benefits to a party other than the
beneficiary or his/her representative payee. POMS GN 02410.001. The Social Security Act prohibits the
assignment of benefits. 42 U.S.C. § 407(a).
16
   POMS, GN 02605.025.
17
   Appendix C-1 and C3.


Summary of FY 2003 OIG Audits of Representative Payees (A-13-04-14067)                               4
As a result, there is a risk that beneficiary funds were improperly assigned to the
representative payees, or these beneficiaries’ may need a representative payee to
manage their funds.

We requested SSA to determine whether these beneficiaries were capable of managing
their own funds.

Significant Issues Related to SSA’s Oversight of the Representative
Payment Program
Our audits identified two common issues related to SSA’s oversight of representative
payees that warrant the attention of SSA management. These issues concern the
problems associated with the retrieval of RPRs and missing information in the RPS.

SSA Could Not            One method SSA uses to monitor representative payees is
                         the RPR. The RPR is intended to assist SSA in determining
Retrieve All
                         the: (1) use of benefits during the proceeding 12-month
Representative Payee
                         reporting period; (2) continued suitability of the
Reports
                         representative payee; and (3) continued need for
                         representative payment.18 Depending on the representative
payee’s responses, SSA may contact the representative payees to determine their
continued suitability.

As part of our six audits for FY 2003, we planned to review a sample of completed
RPRs to determine whether the representative payee met its reporting responsibilities.
We requested the most recently completed RPRs for 202 beneficiaries. SSA could not
retrieve all representative payee reports for five of the six representative payees
reviewed.19 SSA only provided 116 (57 percent) of the RPRs we requested. For the
remaining 86 (43 percent), we could not determine whether the representative payee
properly submitted RPRs.

In January 2003, SSA established an electronic imaging system to image and
electronically store all RPR forms. The imaging system should improve SSA’s ability to
timely obtain RPRs. In November 2003, we were advised that all RPRs received
without attachments are being imaged and are electronically retrievable. We have not
confirmed that all RPRs received after January 2003 are available electronically, but we
plan to in future audits.




18
  POMS, GN 00605.066, GN 00605.067, GN 00605.090, GN 00605.221.
19
  Appendices C-1, C-2, C-3, C-4, and C-6. One representative payee (Appendix C-5) is a State mental
institution participating in the Onsite Review Program and is exempt under POMS GN 00605.001 from
providing SSA with representative payee reports.


Summary of FY 2003 OIG Audits of Representative Payees (A-13-04-14067)                        5
In April 2004, SSA management reported it had completed testing a concept to allow
certain organizations serving as representative payees to file the RPRs electronically
using the Internet. This concept is being evaluated to determine whether the concept
can be implemented nationwide.

                       The Omnibus Budget Reconciliation Act of 199020 requires SSA
Representative
                       to develop a system to maintain data about all representative
Payee System
                       payees and the individuals they serve. As a result, SSA
Missing
                       established the RPS, which is an on-line system for entering and
Beneficiary Data
                       retrieving information about representative payees and those
                       applying to be representative payees. The RPS contains data
about representative payee applicants; individuals in the representative payee’s care;
and the relationship between the representative payee and the individuals.

In addition, SSA uses the RPS to select representative payees for a site review.
Specifically, SSA periodically selects from RPS all fee-for-service representative
payees, all organizational representative payees serving more than 100 beneficiaries
and individual representative payees serving more than 20 beneficiaries for site
reviews. From the selected representative payees, SSA obtains a sample of
beneficiaries for review.

We found that SSA had inaccurate information in RPS for three21 of the six
representative payees we audited. There were 35 beneficiaries in the representative
payee’s care that were not recorded in RPS.

Inaccurate information in RPS could result in a representative payee not being identified
for a site review. In addition, all beneficiaries in a representative payee’s care may not
be properly identified for a selected review.




20
     Public Law 101-508, Section 5105.
21
     Appendices C-1; C-2; and C-6.


Summary of FY 2003 OIG Audits of Representative Payees (A-13-04-14067)              6
                                                                Conclusions
Of the six representative payees audited for FY 2003, we determined that three
generally had effective safeguards over the receipt and disbursement of Social Security
benefits and ensured Social Security benefits were used and accounted for in
accordance with SSA’s policies and procedures. However, there were additional
improvements that could be made. The three remaining representative payees had
problems in both of these areas. Recommendations for improvement were made for all
six representative payees. The Regional Commissioners agreed with 38 of our
39 recommendations. See Appendix D for a summary of selected recommendations we
previously reported to the appropriate SSA Regional Commissioner. See Appendices
C-1 through C-6 for the specific recommendations for each of the six audits.

AGENCY COMMENTS
The Agency is in the process, or has taken the necessary actions, to implement 38 of
the 39 recommendations from the six previous Office of the Inspector General audits
involving representative payees in the regions. The Agency acknowledges a problem
with RPS and has plans for enhancements to the RPS. (See Appendix E for the full text
of SSA’s comments.)




Summary of FY 2003 OIG Audits of Representative Payees (A-13-04-14067)           7
                                          Appendices




Summary of FY 2003 OIG Audits of Representative Payees (A-13-04-14067)
                                                                         Appendix A

Acronyms
C.F.R          Code of Federal Regulations

CMHC            Connecticut Mental Health Center

C4             Community Counseling Center of Chicago

FFA            Foster Family Agency

FO             Field Office

FY             Fiscal Year

IG             Inspector General

OIG            Office of the Inspector General

POMS           Program Operations Manual System

RPR            Representative Payee Report

RPS            Representative Payee System

SFDHS          San Francisco Department of Human Services

SLA            Supported Living Arrangements

SRC            Sierra Regional Center

SSA            Social Security Administration

SSI            Supplemental Security Income

U.S.C.         United States Code




Summary of FY 2003 OIG Audits of Representative Payees (A-13-04-14067)
                                                                         Appendix B

Background, Scope, and Methodology
BACKGROUND
Some individuals cannot manage or direct the management of their finances because of
their youth or mental and/or physical impairments. Congress granted the Social
Security Administration (SSA) the authority to appoint representative payees to receive
and manage these beneficiaries’ payments.1 A representative payee may be an
individual or an organization. SSA selects representative payees for Old-Age, Survivors
and Disability Insurance beneficiaries or Supplemental Security Income recipients when
representative payments would serve the individual’s interests.

Representative payees are responsible for using benefits in the beneficiary’s best
interests. Their duties include:

1. using benefits to meet the beneficiary’s current and foreseeable needs;

2. conserving and investing benefits not needed to meet the beneficiary’s current
   needs;

3. maintaining accounting records of how the benefits are received and used;

4. reporting events to SSA that may affect the individual's entitlement or benefit
   payment amount;

5. reporting any changes in circumstances that would affect their performance as a
   representative payee; and

6. providing SSA an annual Representative Payee Report (RPR) accounting for how
   benefits were spent and invested.

Our prior audits of representative payees have identified weaknesses in SSA’s
monitoring of and accounting for representative payees. Problematic conditions
identified during these audits included: internal control weaknesses; bank accounts
were not properly titled; direct deposit of benefit payments was not used; RPRs were
incorrectly prepared; improper endorsement of beneficiary checks; SSA could not
always retrieve RPRs; and missing data in SSA’s Representative Payee System (RPS).
Many of these problematic conditions were also identified during our Fiscal Year (FY)
2003 audits.



1
    42 U.S.C. §§ 405(j), 1383(a)(2).


Summary of FY 2003 OIG Audits of Representative Payees (A-13-04-14067)               B-1
We performed six audits of representative payees in FY 2003 (Appendix C). Five were
organizational representative payees and one was a fee-for-service.

The objectives of these audits were to determine whether representative payees (1) had
effective safeguards over the receipt and disbursement of Social Security benefits and
(2) ensured Social Security benefits were used and accounted for in accordance with
SSA policies and procedures.

The six representative payees we audited were:

•   Connecticut Mental Health Center, Money Management Program, an organizational
    representative payee for SSA in New Haven, Connecticut;

•   Atlantis Rehabilitation and Nursing Center, an organizational representative payee in
    Carneys Point, New Jersey;

•   Community Counseling Centers of Chicago, a Fee-For-Service representative payee
    in Chicago, Illinois;

•   Cottonwood, Inc., an organizational representative payee in Lawrence, Kansas;

•   Sierra Regional Center, an organizational representative payee in Sparks, Nevada;
    and

•   San Francisco Department of Human Services, an organizational representative
    payee in San Francisco.

SCOPE AND METHODOLOGY
To accomplish our objectives, we identified and summarized common findings and
recommendations from six FY 2003 Office of the Inspector General's audits of
representative payees.

We performed our review in Baltimore, Maryland from October 2003 through
November 2003. We conducted our review in accordance with Quality Standards for
Inspections issued by the President’s Council on Integrity and Efficiency.




Summary of FY 2003 OIG Audits of Representative Payees (A-13-04-14067)               B-2
                                                                         Appendix C

Office of the Inspector General Audits of
Representative Payees
C-1    The Connecticut Mental Health Center, Money Management Program – An
       Organizational Representative Payee For The Social Security Administration
       (A-13-03-23009), Issued August 2003

C-2    Audit of the Atlantis Rehabilitation And Nursing Center – A Representative Payee
       For The Social Security Administration (A-02-03-13013), Issued May 2003

C-3    Audit of Community Counseling Centers of Chicago – A Fee-For-Service
       Representative Payee For The Social Security Administration (A-13-03-13002),
       Issued July 2003

C-4    Audit of Cottonwood, Incorporated – An Organizational Representative Payee
       For The Social Security Administration (A-07-03-13024), Issued August 2003
       (Limited Distribution)

C-5    Sierra Regional Center – An Organizational Representative Payee For The
       Social Security Administration (A-09-03-23023), Issued June 2003

C-6    San Francisco Department of Human Services – An Organizational
       Representative Payee For The Social Security Administration
       (A-09-03-13011), Issued November 2003




Summary of FY 2003 OIG Audits of Representative Payees (A-13-04-14067)
                                                                     Appendix C-1
Connecticut Mental Health Center, Money Management Program – An
Organizational Representative Payee For The Social Security Administration
(A-13-03-23009), Issued August 2003.

Background

Connecticut Mental Health Center (CMHC) provides services to adults with mental
health concerns. CMHC serves about 50 individuals and is the representative payee for
about 35 SSA beneficiaries. The remaining 15 individuals voluntarily receive money
management services. SSA paid CMHC approximately $200,000 for the
35 beneficiaries from May 1, 2001 through April 30, 2002.

Results of Review

Our audit showed that CMHC needed to (1) improve its safeguards over the receipt and
disbursement of Social Security benefits and (2) ensure that Social Security benefit
payments were used and accounted for in accordance with SSA's policies and
procedures. Specifically, CMHC:

•   did not have the representative payee bank account properly titled to show that
    funds deposited into the account belonged to SSA beneficiaries;

•   did not place beneficiaries' conserved funds into an interest-paying account;

•   had a check disbursement approval process, but did not include an independent
    verification against original invoices;

•   did not establish direct deposit for beneficiary payments, leaving beneficiary checks
    vulnerable to loss and theft;

•   improperly endorsed and deposited at least 76 benefit checks totaling about $45,000
    made payable to 8 beneficiaries for whom CMHC was not the representative payee;
    and

•   did not ensure a beneficiary's medication needs were being met.

We also identified three areas for SSA's attention. SSA did not record in its
Representative Payee System (RPS) two beneficiaries in CMHC's care. SSA could not
provide 25 of the 35 RPRs we requested. We, therefore, could not determine whether
CMHC properly reported to SSA how benefits were spent and invested for all cases.
SSA did not reinstate a beneficiary's Title II benefits after being notified he was eligible
for payments.




Summary of FY 2003 OIG Audits of Representative Payees (A-13-04-14067)                     1
Recommendations

CMHC had internal control and accounting weaknesses, which prevented it from fully
meeting its responsibilities as a representative payee. We believe CMHC needs to
improve several areas of its Representative Payee program. We recommend that SSA:

1. Require that CMHC change the bank account titling to show the funds belong to the
   beneficiaries.

2. Request CMHC to deposit conserved funds in an interest-paying account.

3. Ensure CMHC's check disbursement approval process includes verification with
   original invoices by a second person.

4. Request that CMHC establish direct deposit for all beneficiaries in its care.

5. Instruct CMHC to stop the practice of negotiating Social Security checks that are
   made payable to beneficiaries.

6. Determine whether CMHC should continue to serve as a representative payee
   because of its improper endorsement of benefit checks.

7. Determine whether the eight beneficiaries that have their Social Security checks
   sent directly to CMHC need a representative payee.

8. Correct RPS to include all beneficiaries for whom CMHC was selected as a
   representative payee.

Agency Comments

SSA agreed with all our recommendations.




Summary of FY 2003 OIG Audits of Representative Payees (A-13-04-14067)                 2
                                                                     Appendix C-2
Audit of the Atlantis Rehabilitation and Nursing Center – A Representative Payee
For The Social Security Administration (A-02-03-13013), Issued May 2003.

Background

Atlantis is a for-profit, multi-purpose skilled nursing facility in Carneys Point, New
Jersey. As a multi-purpose facility, Atlantis provides nursing home services (138 beds)
and assisted living services (24 beds) to its residents. Before March 2002, Atlantis was
named Parkview Healthcare Center. During our audit period, Atlantis was the
representative payee for 134 individuals, who were receiving Social Security benefits.
Atlantis has a contractual arrangement with Broadway Healthcare Management to
perform all of its accounting functions. Broadway Healthcare Management is located in
Hackensack, New Jersey.
Atlantis provides residents receiving Old-Age, Survivors and Disability Insurance
benefits $35 per month from their benefits for their personal expenses. Atlantis uses
the remaining amount for housing and food. Most Supplemental Security Income (SSI)
program recipients are provided $40 per month in payments from Social Security, and
the entire amount is provided to the residents for their personal expenses. Medicaid per
diem payments cover the SSI recipients' housing and food costs. SSI recipients
residing in the assisted living section of the facility are paid a higher congregate care
rate and receive $78.50 (effective January 2002, $80.50) per month for their personal
expenses.

Results of Review

Our audit showed that Atlantis generally (1) had effective safeguards over the receipt
and disbursement of Social Security benefits and (2) ensured Social Security benefits
were used and accounted for in accordance with SSA's policies and procedures.
However, Atlantis did not always prepare the RPRs accurately.

We also identified two areas where SSA needs to improve its monitoring of
representative payees. Specifically, Atlantis was the representative payee for eight
beneficiaries who were not recorded in SSA's Representative Payee System (RPS).
Also, SSA could not provide 16 of the 25 RPRs we requested. We, therefore, could not
determine whether Atlantis properly met its reporting responsibility for all cases.

Recommendations

Generally, Atlantis met its responsibilities. However, Atlantis should exercise more care
in preparing the RPRs. Also, SSA could improve the information about Atlantis in its
RPS. We recommend that SSA:



Summary of FY 2003 OIG Audits of Representative Payees (A-13-04-14067)                   1
   •   Clarify procedures with the representative payee for preparing the RPRs.

   •   Correct the RPS to include all beneficiaries for whom Atlantis was selected as
       the representative payee.

Agency Comments

SSA agreed with both of our recommendations. We also requested comments from the
representative payee; however, Atlantis chose not to provide written comments.




Summary of FY 2003 OIG Audits of Representative Payees (A-13-04-14067)                  2
                                                                     Appendix C-3
Audit of Community Counseling Centers of Chicago – A Fee-For-Service
Representative Payee For The Social Security Administration (A-13-03-13002),
Issued July 2003.

Background
Community Counseling Center of Chicago (C4) is a nonprofit Social Service agency,
whose mission is to deliver needs-based, comprehensive mental health and substance
abuse treatment and support services to community residents. Services include
behavioral health and supportive services for adults; child, adolescent and family
services; crisis intervention and assessment; medical, mental health and substance
abuse treatment; and case management. During our audit period from May 1, 2001
through April 30, 2002, SSA paid C4 approximately $2.1 million for 418 beneficiaries in
C4's care.

Results of Review

Our audit showed that C4 needs to improve its safeguards over the receipt and
disbursement of Social Security benefits and better ensure that Social Security benefit
payments are used and accounted for in accordance with SSA's policies and
procedures. Specifically, we found that:

•   C4's representative payee bank account improperly included other funds along with
    Social Security benefits.

•   C4's check disbursement approval process did not include an independent
    verification to original invoices.

•   C4 did not establish direct deposit for beneficiary payments, leaving beneficiary
    checks vulnerable to loss and theft.

•   C4 used estimated amounts to complete Representative Payee Reports (RPR).

•   C4 charged representative payee fees to three beneficiaries when the representative
    payee application stated otherwise.

•   C4 improperly endorsed and deposited at least 71 benefit checks totaling
    approximately $43,000 made payable to 17 beneficiaries for whom C4 was not the
    representative payee.

We also identified three areas for SSA's attention. The Representative Payee System
(RPS) included eight beneficiaries who were no longer in C4's care. Benefits were paid
directly to a beneficiary by direct deposit when C4 was the representative payee of
record. SSA could not provide 11 of the 30 RPRs we requested. We, therefore, could


Summary of FY 2003 OIG Audits of Representative Payees (A-13-04-14067)                    1
not determine whether C4 properly reported to SSA how benefits were spent and
invested for all cases.

Recommendations

C4 has internal control and accounting weaknesses, which prevent it from fully meeting
its responsibilities as a representative payee. We believe C4 needs to improve several
areas of its Representative Payee program. We recommend that SSA:

1. Ensure that C4 identifies all sources of funds in its representative payee account and
   removes any non-beneficiary funds. In doing so, C4 should also determine whether
   there are any SSA funds that should be paid to beneficiaries.

2. Ensure that C4's check disbursement approval process includes verification to
   original invoices by a second person.

3. Require C4 to establish direct deposit for all beneficiaries in its care.

4. Provide training and clarify procedures with C4 for completing RPRs.

5. Determine whether C4 is permitted to collect fees from the three beneficiaries whose
   representative payee application stated no fees would be charged.

6. Instruct C4 to stop the practice of negotiating Social Security checks when they are
   not the official representative payee.

7. Determine whether the 17 beneficiaries that have their Social Security checks sent
   directly to C4 need a representative payee.

8. Correct the RPS to show C4 is no longer the representative payee for eight
   beneficiaries.

9. Determine whether benefit payments were properly deposited into a beneficiary's
   bank account and determine whether the beneficiary needs a representative payee.

Agency Comments

SSA generally agreed with all our recommendations. However, SSA had additional
comments to Recommendations 3, 5, 6, 7 and 9.

Recommendation 3 - SSA agreed the use of direct deposit should be considered but
noted that C4's financial institution could not provide detailed individual deposit
information quickly enough to ensure timely payments of beneficiary expenses.

Recommendation 5 - SSA requested specific information concerning the accounts
involved so it may determine what additional actions may be necessary.



Summary of FY 2003 OIG Audits of Representative Payees (A-13-04-14067)                    2
Recommendations 6 and 7- SSA stated that C4 serves as a kind of bank, as an “in care
of” addressee, to individuals not confident of the security of their mail. As a result of our
findings, C4 and the local SSA field office have obtained additional documentation to
support this arrangement, which is made for the convenience, and at the request, of the
beneficiaries.

Recommendation 9 - SSA stated despite inaccurate data on RPS, the Master
Beneficiary Record indicates the beneficiary has been in direct payment. C4 did not
receive any funds.




Summary of FY 2003 OIG Audits of Representative Payees (A-13-04-14067)                     3
                                                                     Appendix C-4
Audit of Cottonwood, Incorporated – An Organizational Representative Payee For
The Social Security Administration (A-07-03-13024), Issued August 2003


This report contains restricted information for official use. Distribution is limited
to authorized officials.

Results of Review

We found that Cottonwood, Incorporated needed to strengthen and implement more
effective safeguards over the receipt and disbursement of Social Security benefits and
ensure SSA benefit payments were used in accordance with SSA policies and
procedures. Specifically, Cottonwood:

   •   Had insufficient controls over cash disbursements that resulted in an employee
       theft of about $27,000 in SSA beneficiaries’ funds.

   •   Did not review or maintain receipts for items purchased by its employees from
       beneficiaries’ funds.

   •   Allowed beneficiaries’ unsupervised access to their checkbooks.

   •   Did not properly title beneficiaries’ bank accounts.

   •   Did not receive all SSA benefit payments via direct deposit or hold beneficiaries’
       conserved funds in interest-bearing accounts.

   •   SSA only retrieved 68 of 82 RPRs requested.


Recommendations

The report contained six recommendations.

Agency Comments

SSA agreed to all the recommendations and outlined the corrective actions Cottonwood
is taking to implement our recommendations.




Summary of FY 2003 OIG Audits of Representative Payees (A-13-04-14067)
                                                                     Appendix C-5
Sierra Regional Center – An Organizational Representative Payee For The Social
Security Administration (A-09-03-23023), Issued June 2003.

Background

Sierra Regional Center (SRC) is a State mental institution that provides services to
individuals with mental retardation and related conditions. SRC is an organizational
representative payee located in Sparks, Nevada. As a representative payee, SRC
provides services for individuals living within the institution. SRC also enters into
contractual agreements with care providers for the daily care of individuals living outside
the institution. These contracts are referred to as supported living arrangements (SLA).
Although SRC contracts with care providers for individuals living outside the institution, it
remains the representative payee for SSA beneficiaries.
From May 1, 2001 through April 30, 2002, SRC received $383,669 in Social Security
benefits on behalf of 90 beneficiaries. As a State mental institution, SRC is exempt
from providing SSA with an annual Representative Payee Report, accounting for how
benefits were spent and invested. Instead, SSA is required to perform an on-site review
every 3 years. The SSA field office (FO) in Reno, Nevada, conducted on-site reviews of
SRC in September 2001 and April 2002.

Results of Review

Generally, SRC (1) had effective safeguards over the receipt and disbursement of
Social Security benefits and (2) ensured that Social Security benefits were used and
accounted for in accordance with SSA's policies and procedures. However, we
identified three areas where SRC could improve its performance as a representative
payee. SRC neither returned conserved funds in a timely manner, nor maintained
supporting documentation for all expenditures. In addition, SRC did not ensure
beneficiaries' earnings were properly reported.

Recommendations

We recommend that SSA direct SRC to (1) return conserved funds to the new
representative payee or SSA for individuals no longer in its care; (2) maintain supporting
documentation for the expenditures of beneficiaries who live outside the institution; and
(3) strengthen its procedures for reporting the earnings of its beneficiaries.

Agency Comments

SSA agreed with all of our recommendations.




Summary of FY 2003 OIG Audits of Representative Payees (A-13-04-14067)
                                                                     Appendix C-6
San Francisco Department of Human Services – An Organizational
Representative Payee For The Social Security Administration (A-09-03-13011),
Issued November 2003.

Background

San Francisco Department of Human Services (SFDHS) is a Social Services agency for
the City and County of San Francisco, California. From May 1, 2001 through
April 30, 2002, SFDHS received $782,687 in Social Security benefits on behalf of
145 beneficiaries, including 124 children and 21 adults.

Results of Review

Generally, SFDHS (1) had effective safeguards over the receipt and disbursement
of Social Security benefits and (2) ensured Social Security benefits were used in
accordance with SSA’s policies and procedures. However, we identified seven areas
where SFDHS could improve its performance as a representative payee. Specifically,
SFDHS did not always report Title IV-E payments, notify SSA of changes in custody,
identify excess resources, cancel unnegotiated checks, conserve excess funds,
maintain individual accounts, and properly title the bank account for its beneficiaries.

In addition, we identified one area where SSA needs to improve its monitoring of
representative payees. Specifically, SSA did not update its Representative Payee
System to accurately reflect the beneficiaries in SFDHS’ care.

Recommendations

During our audit, SFDHS refunded $143,520 in overpayments to SSA. We recommend
that SSA:
1. Ensure SFDHS develops procedures to identify and report changes in income for
   SSI recipients who receive Title IV-E payments;
2. Ensure SFDHS develops procedures to promptly report changes in custody for its
   child beneficiaries and return conserved funds if they no longer serve as
   representative payee;
3. Direct SFDHS to refund $15,364 in overpayments for SSI recipients with conserved
   funds in excess of the $2,000 resource limit;
4. Ensure SFDHS develops procedures to identify and report SSI recipients with
   excess resources in a timely manner;
5. Direct SFDHS to cancel its unnegotiated checks and refund $12,733 in beneficiary
   funds to SSA;


Summary of FY 2003 OIG Audits of Representative Payees (A-13-04-14067)                     1
6. Direct SFDHS to establish $4,150 in conserved funds for the child beneficiaries
   placed in foster homes through an Foster Family Agency (FFA);
7. Ensure SFDHS develops procedures to identify and conserve funds in excess of
   current maintenance needs for child beneficiaries with FFA fees;
8. Direct SFDHS to establish $4,064 in conserved funds for the child beneficiaries who
   received income in excess of expenses during our audit period;
9. Direct SFDHS to maintain individual accounts for child beneficiaries to ensure the
   benefits received and disbursed are properly accounted for;
10. Ensure SFDHS amends the title of its bank account for child beneficiaries to reflect
    their ownership interest in the funds; and
11. Update RPS to include all beneficiaries for whom SFDHS was selected as
    representative payee.

Agency Comments

SSA agreed with all of our recommendations.




Summary of FY 2003 OIG Audits of Representative Payees (A-13-04-14067)                     2
                                                                         Appendix D
Summary of Previous OIG Recommendations

Below are selected recommendations we previously reported to the appropriate SSA
Regional Commissioners and are presented here for informational purposes only.

We recommended that SSA require the affected representative payees to:

1. Ensure check disbursement approval process includes verification with original
   invoices by a second person.

2. Change the bank account titling to show the funds belong to the beneficiaries.

3. Establish direct deposit of monthly benefits into a bank account as appropriate.

4. Clarify procedures with the representative payee for preparing the Representative
   Payee Reports.

5. Stop the practice of negotiating Social Security checks that are made payable to
   beneficiaries.

In addition, we recommended that SSA take corrective actions to update its
Representative Payee System to include all beneficiaries in a representative payee’s
care.




Summary of FY 2003 OIG Audits of Representative Payees (A-13-04-14067)
                                                                         Appendix E

Agency Comments




Summary of FY 2003 OIG Audits of Representative Payees (A-13-04-14067)
                                        SOCIAL SECURITY

MEMORANDUM                                                                           33308-24-1166


Date:      July 12, 2004                                                      Refer To: S1J-3

To:         Patrick P. O’Carroll, Jr.
            Acting Inspector General

From:       Larry W. Dye /s/
            Chief of Staff

Subject:    Office of the Inspector General (OIG) Draft Management Advisory Report, “Summary of
            Fiscal Year 2003 Office of the Inspector General Audits of Representative Payees”
            (A-13-04-14067)--INFORMATION


           We appreciate OIG's efforts in preparing this draft report. We are committed to ensuring
           that representative payees (Rep Payees) properly use and account for payments made
           on behalf of the beneficiaries in their care. We will continue to advise Rep Payees
           during our reviews of any questionable issue or identified weakness encountered and
           the action required to correct the situation.

           The Agency is in the process, or has taken the necessary actions, to implement 38 of
           the 39 recommendations from the six previous OIG audits involving Rep Payees in the
           regions. The results of the report state that three of the six Rep Payees audited, in
           general, had effective safeguards over the receipt and disbursement of benefits and
           were in compliance with the Social Security Administration’s (SSA) policies and
           procedures. The remaining three Rep Payees had problems in both of the above areas,
           and recommendations were made for improvements. We have determined that
           appropriate regional action has been taken to ensure these problems have been
           resolved. We note there are no new recommendations for SSA in the summary report.

           The report indicates that SSA has inaccurate information in the Representative Payee
           System (RPS) for three of the six Rep Payees who were audited in the summary
           review. We acknowledge this problem and remind OIG of our plan for enhancements to
           the RPS, as discussed in a related audit recommendation (Representative Payee
           Accounting Systems Issues; A-13-96-52002), to improve the payee accounting process




           Summary of FY 2003 OIG Audits of Representative Payees (A-13-04-14067)                E-1
and to add missing payees to the system. As discussed in our quarterly reporting, the
final implementation date for the Phase 3 enhancement has not yet been determined.

Please let me know if we can be of further assistance. Staff questions can be referred to
Candace Skurnik at 54636.




Summary of FY 2003 OIG Audits of Representative Payees (A-13-04-14067)                E-2
                                                                         Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Shirley E. Todd, Director, General Management Audit Division (410) 966-9365

   Randy Townsley, Audit Manager, (410) 966-1039


Acknowledgments

In addition to the persons named above:

    Alan Carr, Auditor-in-Charge

    Cheryl Robinson, Writer-Editor


For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 966-1375. Refer to Common Identification Number
A-13-04-14067.




Summary of FY 2003 OIG Audits of Representative Payees (A-13-04-14067)
                             DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                  Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
